RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20Franqui Francisco Flores de Freitas,
Petitioner,
v.
United States of America et al.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Michael A. Levy, certify that
the Petition for a Writ of Certiorari in the foregoing case contains 6,796 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 17, 2020.
/s/ Michael A. Levy
MICHAEL A. LEVY
SIDLEY AUSTIN LLP
787 Seventh Avenue
New York, NY 10019
(212) 839-5300

